                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:


  AUDIT OF THE INFORMATION TECHNOLOGY
          SECURITY CONTROLS OF THE
  U.S. OFFICE OF PERSONNEL MANAGEMENT’S
  PERSONNEL INVESTIGATIONS PROCESSING
                   SYSTEM
                    FY 2013
                                           Report No. 4A-IS-00-13-022


                                           Date:                  June 24, 2013




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report


                              U.S. OFFICE OF PERSONNEL MANAGEMENT
                               -------------------------------------------------------------

                   AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                      CONTROLS OF THE U.S. OFFICE OF PERSONNEL
                      MANAGEMENT’S PERSONNEL INVESTIGATIONS
                                  PROCESSING SYSTEM
                                             FY 2013
                                  --------------------------------
                                    WASHINGTON, D.C.




                                           Report No. 4A-IS-00-13-022


                                          Date:                  June 24, 2013




                                                                                     ______________________
                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                        for Audits
                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                  Executive Summary

                      U.S. OFFICE OF PERSONNEL MANAGEMENT
                       -------------------------------------------------------------

              AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                 CONTROLS OF THE U.S. OFFICE OF PERSONNEL
                 MANAGEMENT’S PERSONNEL INVESTIGATIONS
                             PROCESSING SYSTEM
                                        FY 2013
                             --------------------------------
                               WASHINGTON, D.C.




                                Report No. 4A-IS-00-13-022


                                Date:             June 24, 2013


This final audit report discusses the results of our audit of the information technology security
controls of the U.S. Office of Personnel Management’s (OPM) Personnel Investigations
Processing System (PIPS). Our conclusions are detailed in the “Results” section of this report.

Security Assessment and Authorization (SA&A)
An SA&A of PIPS was completed in June 2011. We reviewed the authorization package for all
required elements of an SA&A, and determined that the package contained all necessary
documentation.

Federal Information Processing Standards (FIPS) 199 Analysis
The security categorization of PIPS appears to be consistent with FIPS 199 and National Institute
of Standards and Technology (NIST) Special Publication (SP) 800-60 requirements, and we
agree with the categorization of “high.”




                                                    i
System Security Plan (SSP)
The PIPS SSP contains the critical elements required by NIST SP 800-18. However, several
controls listed in the SSP as common or inherited are inappropriately labeled.

Risk Assessment
A risk assessment was conducted for PIPS as a part of their 2011 SA&A. All major elements
outlined in the NIST guidance were addressed.

Independent Security Control Testing
A security control assessment was completed for PIPS in April 2011 as a part of the system’s
SA&A process. As a result of the inappropriately labeled controls in the SSP, the Bureau of
Public Debt inappropriately removed these controls from its security control test plan, and these
controls have not been adequately tested.

Security Control Self-Assessment
Federal Investigative Services implemented an Information Security Continuous Monitoring
Plan that addresses the annual self-assessment requirements. However, the security plan
inappropriately labels several controls as common or inherited, thus impacting the ability of FIS
to appropriately implement and test the PIPS controls.

Contingency Planning and Contingency Plan Testing
A contingency plan was developed for PIPS that is in compliance with NIST SP 800-34 and is
tested annually.

Privacy Impact Assessment (PIA)
A privacy threshold analysis was conducted for PIPS and indicated that a PIA was required. A
PIA was conducted in June 2011.

Plan of Action and Milestones (POA&M) Process
The PIPS POA&M is routinely submitted to the Office of the Chief Information Officer for
evaluation and generally follows the format of the OPM POA&M guide, with a few exceptions
regarding the level of detail required by the OPM guide. However, there are a substantial
number of significantly over due POA&M items.

NIST SP 800-53 Evaluation
We evaluated the degree to which a subset of the IT security controls outlined in NIST SP 800-
53 Revision 3 was implemented for PIPS and found no issues beyond those previously
identified.




                                                ii
                                                                 Contents
                                                                                                                                               Page

Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives .........................................................................................................................................1
Scope and Methodology ...................................................................................................................2
Compliance with Laws and Regulations ..........................................................................................3
Results ..............................................................................................................................................4
   I.         Security Assessment and Authorization ...........................................................................4
   II.        FIPS 199 Analysis.............................................................................................................4
   III.       System Security Plan ........................................................................................................4
   IV.        Risk Assessment ...............................................................................................................5
   V.          Independent Security Control Testing ..............................................................................6
   VI.        Security Control Self-Assessment ....................................................................................6
   VII.       Contingency Planning and Contingency Plan Testing......................................................7
   VIII.      Privacy Impact Assessment ..............................................................................................7
   IX.        Plan of Action and Milestones Process .............................................................................7
   X.         NIST SP 800-53 Evaluation..............................................................................................9
Major Contributors to this Report ..................................................................................................10
Appendix A: Federal Investigative Services’ April 25, 2013 response to the draft audit report,
issued March 1, 2013
                                        Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107‑347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we audited the information technology (IT)
security controls related to the Office of Personnel Management’s (OPM) Personnel
Investigations Processing System (PIPS).

                                        Background
OPM’s Federal Investigative Services (FIS) has ownership of PIPS. PIPS is utilized to process
hundreds of thousands of background investigations each year. The system contains the OPM
Security/Suitability Investigations Index and maintains approximately 15 million records of
investigations conducted by and for OPM, the Federal Bureau of Investigations, the U.S.
Department of State, the Secret Service, and other customer agencies. The PIPS system
interfaces with several other FIS systems to process applications and the flow of data relies on
both the OPM Local Area Network / Wide Area Network (LAN/WAN) and Enterprise Server
Infrastructure (ESI) general support systems. As a function of oversight, the Office of the Chief
Information Officer (OCIO) assigned an Information System Security Officer (ISSO) to manage
a variety of security functions on behalf of FIS.

                                         Objectives
Our objective was to perform an evaluation of the security controls for PIPS to ensure that FIS
has implemented IT security policies and procedures in accordance with standards established by
FISMA, the National Institute of Standards and Technology (NIST), the Federal Information
System Controls Audit Manual (FISCAM), and OPM’s OCIO.

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The audit objective was accomplished by reviewing the
degree to which a variety of security program elements have been implemented for PIPS,
including:

•   Security Assessment and Authorization;
•   FIPS 199 Analysis;
•   System Security Plan;
•   Risk Assessment;
•   Independent Security Control Testing;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;
•   Plan of Action and Milestones Process; and

                                                1
•   NIST Special Publication 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of FIS, including IT
security controls in place as of January 2013.

We considered the PIPS internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objectives, we interviewed representatives of OPM with security
responsibilities for PIPS. We reviewed relevant OPM IT policies and procedures, federal laws,
OMB policies and guidance, and NIST guidance. As appropriate, we conducted compliance
tests to determine the extent to which established controls and procedures are functioning as
required.

Details of the security controls protecting the confidentiality, integrity, and availability of PIPS
are located in the “Results” section of this report. Since our audit would not necessarily disclose
all significant matters in the internal control structure, we do not express an opinion on the PIPS
system of internal controls taken as a whole.

The criteria used in conducting this audit include:
•   OPM Information Security and Privacy Policy Handbook;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   The Federal Information System Controls Audit Manual;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;
•   NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
    Capabilities;



                                                 2
•   Federal Information Processing Standards Publication (FIPS) 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from November 2012
through January 2013 in OPM’s Washington, D.C. office. This was our first audit of the security
controls surrounding PIPS.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether FIS’ management of PIPS is
consistent with applicable standards. Nothing came to our attention during this review to
indicate that the FIS is in violation of relevant laws and regulations.




                                               3
                                              Results
 I. Security Assessment and Authorization
    A Security Assessment and Authorization (SA&A) of PIPS was completed in June 2011.

    OPM’s Chief Information Security Officer reviewed the PIPS SA&A package and signed
    the system’s authorization letter on July 19, 2011. The system’s authorizing official signed
    the letter and authorized the continued operation of the system on July 24, 2011.

    NIST SP 800-37 “Guide for the Security Certification and Accreditation of Federal
    Information Systems,” provides guidance to federal agencies in meeting security
    accreditation requirements. The PIPS SA&A appears to have been conducted in compliance
    with NIST requirements.

II. FIPS 199 Analysis
    FIPS Publication 199, Standards for Security Categorization of Federal Information and
    Information Systems, requires federal agencies to categorize all federal information and
    information systems in order to provide appropriate levels of information security according
    to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories, provides an overview of the security objectives and impact
    levels identified in FIPS Publication 199.

    The PIPS FIPS 199 categorizes information processed by the system and its corresponding
    potential impacts on confidentiality, integrity, and availability. PIPS is categorized with a
    high impact level for confidentiality and integrity and moderate for availability, resulting in
    an overall categorization of high.

    The security categorization of PIPS appears to be consistent with FIPS 199 and NIST SP
    800-60 requirements, and the OIG agrees with the categorization of high.

III. System Security Plan
    Federal agencies must implement on each information system the security controls outlined
    in NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal
    Information Systems, requires that these controls be documented in a System Security Plan
    (SSP) for each system, and provides guidance for doing so.

    The SSP for PIPS was created using a template that is outlined in the OPM SSP guide. The
    SSP contains the majority of the elements outlined in NIST SP 800-18. However, during the
    review of controls listed in the SSP as common or inherited it was determined that several
    were inappropriately labeled. NIST 800-18 explains that common or inherited controls are
    “those controls covered at the agency level, which are not system-specific.” (9) NIST also
    defines a common security control as having “the following properties: (i) the development,

                                                   4
    implementation, and assessment of the control can be assigned to a responsible official or
    organizational element (other than the information system owner); and (ii) the results from
    the assessment of the control can be used to support the security certification and
    accreditation processes of an agency information system where that control has been
    applied.” Labeling controls incorrectly as common/inherited increases the likelihood that
    controls are not properly implemented at the system level, which in turn increases the risk
    that individuals can inappropriately access sensitive PIPS data.

    Recommendation 1
    We recommend that the PIPS ISSO, FIS, and the owners of the LAN/WAN and ESI,
    collaborate to ensure that all controls listed on the PIPS SSP are appropriately categorized as
    common, inherited, hybrid, or system specific.

    FIS Response:
    “FIS agrees with the recommendation to collaborate with the owners of LAN/WAN and
    ESI to ensure all security controls are appropriately categorized. FIS does note that the
    controls found within the Common Security Controls Collection (CSCC) are assessed and
    validated by the Information Technology Security and Privacy (ITSP) for insertion into
    this library for use amongst the various OPM systems as agency common controls. FIS
    intends to meet with the LAN/WAN and ESI owners to come to a mutual agreement on
    the control type and status for each control currently labeled as belonging to a control
    provider.”

    OIG Reply:
    As part of the audit resolution process for this recommendation and all subsequent
    recommendations to which FIS agrees, please provide OPM’s Internal Oversight and
    Compliance (IOC) division with evidence supporting the corrective action taken.

IV. Risk Assessment
    A risk assessment is used as a tool to identify security threats, vulnerabilities, potential
    impacts, and probability of occurrence. In addition, a risk assessment is used to evaluate the
    effectiveness of security policies and recommend countermeasures to ensure adequate
    protection of information technology resources.

    NIST SP 800-30, Risk Management Guide for Information Technology Systems, offers a
    nine step systematic approach to conducting a risk assessment that includes: (1) system
    characterization; (2) threat identification; (3) vulnerability identification; (4) control
    analysis; (5) likelihood determination; (6) impact analysis; (7) risk determination; (8) control
    recommendation; and (9) results documentation.

    A risk assessment was conducted for PIPS as a part of their 2011 SA&A. All major
    elements outlined in the NIST guidance were addressed.




                                                   5
V. Independent Security Control Testing
    A security control assessment was completed for PIPS in April 2011 as a part of the
    system’s SA&A process. The security assessment was conducted by another government
    agency, the Bureau of Public Debt (BPD). We reviewed the documentation resulting from
    this test to ensure that it included a review of the appropriate management, operational, and
    technical controls required for a system with a “high” security categorization according to
    NIST SP 800-53, Recommended Security Controls for Federal Information Systems.

    The BPD appeared to adequately test the security controls that were within the scope of this
    engagement. However, as mentioned in section III, above, the PIPS SSP incorrectly
    identified several controls as common or inherited. As a result, the BPD inappropriately
    removed these controls from its security control test plan, and these controls have not been
    adequately tested. Prior to the next independent test of security controls, an appropriately
    categorized list of security controls should be finalized as a result of Recommendation 1,
    above.

VI. Security Control Self-Assessment
    FISMA requires that the IT security controls of each major application owned by a federal
    agency be tested on an annual basis. In the years that an independent security assessment is
    not being conducted on a system, the system’s owner must conduct an internal self-
    assessment of security controls. Furthermore, NIST SP 800-53 mandates the development
    of a security assessment plan and outlines the required inclusions.

    On October 1, 2012, FIS implemented an Information Security Continuous Monitoring
    (ISCM) Plan that outlined an approach for testing all high volatility controls at a frequency
    no less than quarterly and moderate/low volatility controls at a frequency no less than
    annually. However, as mentioned in section III above, the FIS security plan inappropriately
    labels several controls as common or inherited. The current ISCM cannot be fully
    implemented until FIS identifies exactly which security controls are system specific and
    need to be subject to continuous monitoring.

    Failure to complete an appropriately scoped security controls test increases the risk that IT
    security weaknesses are undetected and that FIS is unable to make informed judgments to
    appropriately mitigate risks to an acceptable level.

    Recommendation 2
    We recommend that, after all controls on the SSP have been reviewed and appropriately
    categorized, FIS ensure that a thorough test of security controls is completed for PIPS.

    FIS Response:
    “FIS agrees with the recommendation. Recognizing the concern identified by OIG with
    possible improperly categorized security controls within the SSP, FIS will fully review all
    security controls currently categorized as common or inherited and validate their
    accuracy while collaborating with the control provider. FIS will update the SSP
    accordingly based on this review, will include those found to be improperly categorized

                                                   6
      into the current ISCM plan and will re-test all security controls during the next
      Assessment & Authorization cycle for PIPS (June 2014).”

VII. Contingency Planning and Contingency Plan Testing
      NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
      contingency planning, execution, and testing are essential to mitigate the risk of system and
      service unavailability. OPM’s security policies require all major applications to have viable
      and logical disaster recovery and contingency plans, and that these plans be annually
      reviewed, tested, and updated.

      Contingency Plan
      The PIPS contingency plan documents the functions, operations, and resources necessary to
      restore and resume PIPS operations when unexpected events or disasters occur. The PIPS
      contingency plan follows the format suggested by NIST SP 800-34 and contains a majority
      of the suggested elements.

      Contingency Plan Test
      NIST SP 800-34 also provides guidance for testing contingency plans and documenting the
      results. In addition, NIST SP 800-53 Control CP-3 requires system owners to “train
      personnel in their contingency roles and responsibilities with respect to the information
      system and provide refresher training.”

      FIS conducted a test of the system’s contingency plan in 2012. The testing documentation
      includes the majority of elements suggested by NIST SP 800-83.

VIII. Privacy Impact Assessment
      FISMA requires agencies to perform a screening of federal information systems to
      determine if a Privacy Impact Assessment (PIA) is required for that system. OMB
      Memorandum M-03-22 outlines the necessary components of a PIA. The purpose of the
      assessment is to evaluate any vulnerabilities of privacy in information systems and to
      document any privacy issues that have been identified and addressed. The OPM Privacy
      Impact Assessment Guide states that all OPM IT systems must have a Privacy Threshold
      Analysis (PTA) which is utilized to determine if a PIA is required.

      FIS completed a PTA of PIPS and determined that a PIA was required for this system. As
      such, a PIA was completed in June of 2011 based on the guidelines contained in OPM’s PIA
      Guide.

 IX. Plan of Action and Milestones Process
      A Plan of Action and Milestones (POA&M) is a tool used to assist agencies in identifying,
      assessing, prioritizing, and monitoring the progress of corrective efforts for IT security
      weaknesses. OPM has implemented an agency-wide POA&M process to help track known
      IT security weaknesses associated with the agency’s information systems.


                                                    7
The OIG evaluated the PIPS POA&M and verified that it generally follows the format of
OPM’s standard template, and that updates are routinely submitted to OCIO for evaluation.
However, the POA&M process is not being utilized effectively. The PIPS POA&M
contained 21 security weaknesses, 4 of which have remediation activities in excess of 365
days overdue and an additional 17 remediation activities in excess of 120 days overdue. In
addition, the PIPS POA&M contains the following inconsistences with OPM’s POA&M
Guide:
•   The OPM POA&M color scheme is not being properly utilized to address delayed and
    late items;
•   The “weakness” column for a significant number of items is missing the corresponding
    NIST guidance associated with the identified weakness;
•   The “estimated completion date” column is not being utilized appropriately to track
    remediation efforts; and,
•   The “comments” column is not being properly utilized to track the mitigation efforts for
    weaknesses and explain delayed items.

Failure to appropriately use the POA&M processes to address known security weaknesses in
a timely manner increases the risk that someone could gain unauthorized access to the
system or the data it contains.

Recommendation 3
We recommend that FIS develop a detailed action plan for the remediation of all overdue
POA&M items.

FIS Response:
“FIS has, and will continue to provide a Corrective Action Plan (CAP) to OPM CIO
ITSP, which describes the prioritization of resources (personnel and funding) to resolve
all POAMs over 120 days. The PIPS CAP is reviewed and updated each quarter and
provided to OPM CIO ITSP.

FIS agrees to provide more detail in the POAM and/or POAM Milestones and will reflect
the specific detail appropriately into Trusted Agent FISMA (TAF).”

Recommendation 4
We recommend that FIS revise its existing POA&M items to include the required level of
detail as explained in the OPM POA&M Guide.

FIS Response:
“FIS agrees with the need to increase the level of detail found within the existing POAMs.
It has been noted that the current OPM POAM Guide is a bit outdated (September 2009)
and it does not accurately reflect the current business process creation, monitoring,
updating and closure of POA&Ms using the TAF application. FIS would request
validation [that] the OPM POAM Guide has not changed the definition of “required level
of detail” since original publication.”

                                              8
X. NIST SP 800-53 Evaluation
   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
   Systems, provides guidance for implementing a variety of security controls for information
   systems supporting the federal government. As part of this audit, we evaluated whether a
   subset of these controls had been implemented for PIPS. During our review of the POA&M
   process, we noted 21 open items which correspond to security controls that are not fully
   implemented for PIPS. In addition, we independently tested several security controls
   outlined in NIST SP 800-53 Revision 3 that are applicable to a FIPS 199 “high” categorized
   system. These controls were evaluated by interviewing individuals with PIPS security
   responsibilities, reviewing documentation and system screenshots, and viewing
   demonstrations of system capabilities.

   Our testing did not identify any additional issues beyond those already noted on the PIPS
   POA&M.




                                                9
                        Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of
Inspector General, Information Systems Audits Group. The following individuals
participated in the audit and the preparation of this report:

•                  , Deputy Assistant Inspector General for Audits
•                    , Senior Team Leader
•               , Auditor-in-Charge
•                         , IT Auditor




                                            10
                        United Sta tes Office of Personnel Manage ment





   TO:

           Chief, Information Systems Audit Group

           Office of Personnel Management


  FROM:

           PIPS System Owne

           Office of Personnel

           Federal Investigative Services (FIS )


SUBJECT:   Response to "Draft" FY2013 FISMA System Audit of PIPS


           DIG Recommendation 1:

           We recommend that the PIPS ISSO, FIS, and the owners of the LANIWAN and ESI , collaborate

           to ensure that all cont rols listed on the PIPS SSP are appropriately categorized as common,

           inherited, hybrid, or system specific.


           FIS Response:

           FIS agrees with the recommendation to collaborate with the owners of LANIW AN and ESI to

           ensure all security controls are appropriately categorized. FIS does note that the controls found

           within the Common Secur ity Controls Collection (CSCC) are assessed and validated by the

           Informati on Techn olog y Securit y and Privacy (ITSP) for insertion into this library for use

           amongst the variou s OPM systems as agency common control s. FIS intends to meet with the

            with the LANIWAN and ESI owners to come to a mutual agreement on the control type and

           status for each co ntrol curren tly labeled as belonging to a control provider.


           DIG Recommendation 2:

           We recommend that , after all controls on the SSP have been reviewed and appropriately

           categorized, FIS ensure that a through test of security control s is completed for PIPS.


           FIS Res po nse:

           FIS agrees with the recommendation. Recogn izing the concern identified by OIG with possible

           improperly categorized security controls within the SSP, FIS will fully review all security

           controls currently catego rized as common or inherited and validate their accurac y while

           collaborating with the control provider. FIS will update the SSP accordingly based on this

           review , will include those found to be improperl y categorized into the current ISCM plan and

           will re-test all security co ntrols durin g the next Assessment & Authorization cycle for PIPS (June

           20 14).


           DIG Recommendation 3:

           We recommend that FIS devel op a detailed action plan for the remediation of all overdue POAM

           items

Frs Response:

FrS has, and will co ntinue to provide a Corrective Action Plan (CAP) to OPM cro ITSP, which

describes the prioritization of resources (personnel and funding) to resolve all POAMs over 120

days. The PIPS CAP is reviewed and updated each quarter and prov ided to OPM CIO ITSP.


FrS agrees to provid e more detail in the POAM and/o r POAM Milestones and will reflect the

specific detail appropriately into Trusted Agent FrSMA (T AF).


OIG Recommen da tion 4:

We recomm end that FrS revise its existing POAM items to include the requ ired level of detail as

ex plained in the OPM POAM Guide.


FIS Response:

FIS agrees with the need to increase the level of detail found within the existing POAMs. It has

been noted that the current OPM POAM Guide is a bit outdated (September 2009) and it does

not accurately reflect the current business process of creation, monitoring, updating and closure

of POA&M s using the TAF application. FrS would request validation the OPM POAM Guide

has not changed the definition of "required level of detail" since original pub lication.

